WAIVER
SUPREME COURT OF THE UNITED STATES
No. 21-6
The Metropolitan Museum of Art

Lawrence Marano

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

0

Please check the appropriate box:
. _
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System.. The system will prompt you to enter
your appearance first.)
I am riot presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

0

Signature:
Date:
(Type or print) Name Linda J. Steinman

0

Mr.,

0 Mrs.

0 Ms.

Firm

Davis Wright Tremaine, LLP

Address

1251 Avenue of the Americas, 21st Floor

City & State

New York, NY

Phone

(212) 603-6409

0

Miss

Zip 10020
Email lindasteinman@dwt.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

ames H. Freeman, Esq., Counsel for Petitioner
Liebowitz Law Firm, PLLC
1333A North Ave., Ste. 762
New Rochelle, NY 10804

